 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


  GENERAL AND APPLICATION CONTROLS
OVER AUTOMATED INFORMATION SYSTEMS,
       OFFICE OF SURFACE MINING
    RECLAMATION AND ENFORCEMENT

              REPORT NO. 00-I-138
               DECEMBER 1999




                             -
                                                                      A-IN-OSM-00 l-99-M


             United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240

                                                              DEC 2 I IS99

                                    AUDIT REPORT

Memorandum

To:       Director, Office of Surface Mining Reclamation and Enforcement

From:     Robert J. Williams
          Assistant Inspector

Subject: Audit Report on General and Application Controls Over Automated
         Information Systems, Office of Surface Mining Reclamation and Enforcement
           (No. 0 0 - I - 1 3 8 )


                                    INTRODUCTION

This report presents the results of our audit of the Office of Surface Mining Reclamation and
Enforcement’s general and application controls over its automated information systems. The
objective of this audit was to determine whether Surface Mining had effective general and
application controls over its automated information systems and whether the automated
information systems were operating in compliance with the Federal Financial Management
Improvement Act. We performed this audit to support the Office of Inspector General’s
opinion on the financial statements of Surface Mining by evaluating the reliability of the
general and application controls over computer-generated data that support Surface Mining’s
annual financial statements.

BACKGROUND

The Office of Surface Mining Reclamation and Enforcement was created with the enactment
of the Surface Mining Control and Reclamation Act of 1977 (Public Law 95-87). The
purpose of Surface Mining is to implement the provisions of the Surface Mining Control and
Reclamation Act and to ensure that society and the environment are protected from the
adverse effects of surface and subsurface coal mining operations. Surface Mining meets this
mission through programs authorized by Title IV (Abandoned Mine Reclamation) and Title
V (Control of the Surface Effects of Coal Mining) of the Surface Mining Control and
Reclamation Act. Surface Mining’s activities include issuing mine permits, inspecting mine
operations, enforcing mine standards, ensuring the effectiveness ofauthorized state and tribal
regulatory programs, and promoting reclamation of surface mine lands.
Surface Mining has its headquarters in Washington, D.C., and has decentralized its
regulatory and enforcement mission through the Appalachian Regional Coordinating Center,
in Pittsburgh, Pennsylvania; the Mid-Continent Regional Coordinating Center, in Alton,
Illinois; and the Western Regional Coordinating Center, in Denver, Colorado. Additionally,
Surface Mining maintains a close working relationship with governments of the coal-
producing states, environmental protection groups, and mission support contractors.

Surface Mining is dependent on automated information systems to support its mission and
financial statements. The Division of Information Systems Management is responsible for
facilitating the efficient and,effective use of information and information technologies in
support of information resources management and Surface Mining’s mission. The
information resources management responsibilities are shared by various Surface Mining
organizations, including the Division of Information Systems Management, the Division of
Financial Management, assistant directorates, and regional and field offices. Nationwide,
automated data processing support is provided through local area network-based
microcomputer workstations, including Windows NT, Silicon Graphics, and Sun Solar-is
UNIX. The local area networks are interconnected by Surface Mining’s wide area network.

The data center responsible for inputting, recording, classifying, and reporting on Surface
Mining’s financial business is located at the Division of Financial Management in Denver.
The Division operates and maintains two minicomputer platforms, a Hewlett Packard and
a Sun Solaris, to support Surface Mining’s financial management functions. The Hewlett
Packard computer hosts Surface Mining’s primary financial management system, the
Advanced Budget/Accounting Control and Information System (ABACIS). In addition, the
Hewlett Packard computer hosts other financial applications that affect the generation of
financial statement information as follows:

          -   The   Grants Information Fund Tracking System (GIFTS)
          -   The   Civil Penalty Accounting Control System (CPACS)
          -   The   Audit Fee Billing and Collection System (AFBACS)
          -   The   Synergistic Acquisition Tracking and Information Network (SATIN)

The Sun Solaris computer hosts the Fee Billing and Collection System (FEEBACS)
application, which generates records for posting to ABACIS and affects the generation of
financial statement information. In addition, FEEBACS supports Surface Mining’s mission
critical Applicant Violator System (AVS), which is an independent, stand-alone system that
does not generate data for or impact Surface Mining’s financial records and statements.
Also, the Division operates a Windows NT computer network that distributes personnel data
to Surface Mining’s human resource and budget personnel and provides financial
management data to Surface Mining’s users.

Systems security policies for Surface Mining are established by its Information Technology
Security Officer. System security administration for the minicomputers, local area networks,
and the wide area network is the responsibility of the information technology security
officers at Surface Mining offices and facilities.


                                              2
SCOPE OF AUDIT

We reviewed Surface Mining’s general controls (the policies and procedures for ensuring
that information systems operate properly) that were in place for its automated information
systems. We did not review the application controls (the controls over input, processing, and
output of data) because of the weaknesses we found in the general controls. The
effectiveness of the general controls determines the effectiveness of the application controls.
When the general controls are not effective, application controls can be made ineffective
because the application controls can be bypassed or modified.

We reviewed the general controls in six major areas: security program development, logical
and physical access, change management, separation of duties, system software, and service
continuity. To accomplish our objective, we interviewed Surface Mining and contractor
personnel, reviewed systems documentation, observed and became familiar with data center
operations and network components, analyzed systems security, and evaluated service
continuity procedures and testing. In addition, we reviewed the software maintenance
procedures. During the audit, we used several software tools to identify vulnerabilities in
Surface Mining’s automated information systems and networks. These tools were used to
perform a variety of functions, such as monitoring and analyzing user and system activity,
auditing system configurations and vulnerabilities, accessing the integrity ofcritical systems
and data files, and operating system audit-trail management. Because our review was limited
to evaluating the adequacy of general controls over automated information systems, we did
not evaluate the effectiveness of manual control procedures that may have operated as
compensating controls for the automated information systems’ general controls.

Our audit, which was conducted during January through April 1999 at Surface Mining’s
headquarters and the data center in Denver, Colorado, was made in accordance with the
“Government Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that were
considered necessary under the circumstances.

As part of our audit, we evaluated the internal controls that could adversely affect Surface
Mining’s automated information systems. The control weaknesses that we found are
summarized in the Results of Audit section and detailed in Appendix 1 of this report. Based
on our determination of the inadequacy of the general controls taken as a whole, we believe
that the weaknesses in Surface Mining’s general controls over its automated information
systems should be reported as a “reportable condition” in Surface Mining’s annual financial
statements for fiscal year 1999. In addition, Surface Mining did not have security plans for
its 13 sensitive systems. We believe that Surface Mining should report the lack of security
plans for the systems as a material weakness in its annual assurance statements on
management controls for fiscal year 1999. Because of inherent limitations in any system of
internal controls, losses, noncompliance, or misstatements may occur and not be detected.
We also caution that projecting our evaluations to future periods is subject to the risk that
controls or the degree of compliance with the controls may diminish.


                                               3
PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Office nor the Office of Inspector
General has issued any reports related to the Office of Surface Mining Reclamation and
Enforcement’s general controls over its automated information systems.

                              RESULTS OF AUDIT
We concluded that the Office of Surface Mining Reclamation and Enforcement’s general
controls over its automated information systems were not effective. Specifically, Surface
Mining did not have an adequate security program; did not have controls over access to
automated information systems resources, systems software, separation of duties, and
software development and change management; and did not have assurance of continued
operations in the event of a disaster or system failure. Office of Management and Budget
Circular A- 130, “Management of Federal Information Resources,” and National Institute of
Standards and Technology publications require Federal agencies to establish and implement
computer security and management and internal controls to improve the protection of
information in the computer systems of executive branch agencies. Additionally, the
Congress enacted laws, such as the Privacy Act of 1974 and the Computer Security Act of
1987, to improve the security and privacy of sensitive information in computer systems by
requiring executive branch agencies to ensure that the level of computer security and controls
over sensitive information is adequate. The Computer Security Act defines “sensitive” data
as “any information the loss, misuse, or unauthorized access to or modification of which
could adversely affect the national interest or the conduct of Federal programs, or the privacy
to which individuals are entitled under the Privacy Act.” Further, the Department of the
Interior and Surface Mining have issued policies and procedures to implement general
controls to protect sensitive data in automated information systems. However, the general
controls were not adequate because Surface Mining management had not (1) established
necessarypolicies and procedures for the controls, (2) assigned responsibilities for ensuring
that policies and procedures were developed and followed, and (3) held officials accountable
for noncompliance with the established controls. The lack of adequate controls increased the
risk of unauthorized access and modifications to and the disclosure of Surface Mining data,
theft or destruction of Surface Mining software and sensitive information, and loss of critical
Surface Mining systems and functions in the event of a disaster or system failure.

Overall, we identified 16 weaknesses and made 38 recommendations for improving the
general controls over Surface Mining’s automated information systems. A summary of the
weaknesses noted in the six major areas reviewed is provided in the paragraphs that follow,
and specific details of the weaknesses and our respective recommendations to correct these
weaknesses are in Appendix 1.
Security Program

We found that Surface Mining did not have an automated information systems security
program which identified and addressed all risks affecting sensitive and financial data, did
not have security plans for its 12 sensitive automated information systems, and did not have
adequate security-related personnel policies and procedures for Surface Mining employees
and contractors. As a result, there was an increased risk that sensitive data may be impaired
or compromised by individuals and that data may be inadvertently disclosed, destroyed, or
erroneously modified. We made nine recommendations to address these weaknesses.

Access Controls

We found that Surface Mining did not have adequate controls over access to its automated
information systems. Specifically, Surface Mining did not classify its automated information
systems resources to determine the level of security that should be provided, control the
levels of access granted to systems users, limit the number of log-in attempts allowed for
access to computer resources as required by Department of the Interior standards, control
passwords and password settings, control public user access to the Novell network and file
servers, and protect its local area networks. As a result, there was an increased risk that
sensitive data maintained on the automated information systems were vulnerable to
unauthorized access, manipulation, and disclosure. We made 14 recommendations to
address these weaknesses.

System Software Controls

We found that the controls over system software did not detect and determine inappropriate
use and address vulnerabilities in the operating systems. Specifically, available computer
systems audit tools to ensure integrity over systems processing and data were not used, some
systems audit trails were not implemented and when implemented were not reviewed, and
vendor updates to operating systems software were not implemented. As a result, there was
an increased risk that inappropriate systems settings and processing would not be identified
and recorded. Also, without periodic reviews of the systems’ audit trails, there was an
increased risk that processing problems or unauthorized activities may not be detected or
detected in a timely manner. Additionally, there was an increased risk that operating
systems’ vulnerabilities addressed by the vendor would not be corrected. We made six
recommendations to address these weaknesses.

Separation of Duties

We found that Surface Mining management did not separate the duties of system security
administrators from reviewers and did not separate the duties ofthe application programmers
from systems users. As a result, there was an increased risk that inappropriate actions by
security administrators would not be detected or detected timely and that accidental or
intentional actions by programmers could threaten the integrity of Surface Mining’s data and
disrupt systems processing. We made two recommendations to address these weaknesses.

                                              5
Software Development and Change Management

We found that Surface Mining did not ensure that changes to applications software were
authorized, approved, and tested before being moved into production. As a result, there was
an increased risk that critical sensitive applications software changes were not made and that
applications would not perform as intended. We made three recommendations to address
these weaknesses.

Service Continuity

We found that Surface Mining did not develop a continuity of operations plan for its
telecommunications links, did not finalize plans for its facilities and data center, and did not
have an incident response plan or team. As a result, there was an increased risk that critical
systems or data may not be recovered in the event of a disaster or system failure. We made
four recommendations to address these weaknesses.

Other Matters

During our audit, we also found that the environmental controls at Surface Mining’s
Information Systems Management computer operations room were not adequate to safeguard
the computer resources. For example, the air conditioning system was not maintaining an
appropriate room temperature; the carpeting was dirty and worn, which produces dust and
debris; and the overall condition of the room was unkempt. The National Institute of
Standards and Technology’s “An Introduction to Computer Security: The NIST Handbook”
states that computer resources, such as hardware, software, and magnetic media, require
environmental protection to ensure that the computer resources are safeguarded from
excessive temperatures, dust, and debris.

Office of Surface Mining Reclamation and Enforcement Response and
Office of Inspector General Reply
In the September 17, 1999, response (Appendix 3) to the draft report from the Director,
Office of Surface Mining Reclamation and Enforcement, Surface Mining concurred with the
38 recommendations. Based on the response, we consider Recommendations K.2, M. 1, M.2,
N.2,0.2,0.3, and P. 1 resolved and implemented and Recommendation K. 1 resolved but not
implemented. Accordingly, Recommendation K.l will be forwarded to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation (see Appendix
4). Regarding Recommendation B.3, we agree that the actions taken by Surface Mining to
develop security plans for its mission critical systems are sufficient, although the plans are
not complete; therefore, Surface Mining does not need to report this as a material weakness
in the annual assurance statement on management controls for fiscal year 1999. Thus, we
consider this recommendation resolved. Also based on the response, we request the dates
and titles of the individuals responsible for implementing the remaining 30
recommendations.

                                               6
Surface Mining has completed or has begun actions needed to implement the 38
recommendations. Specifically, the draft publication “Information Systems Security
Program Directive” addresses many of our recommendations for developing policies and
procedures to ensure that Surface Mining’s automated systems are adequately safeguarded.
Although Surface Mining has initiated actions to correct the general control weaknesses
identified in this report, many of these actions were not completed by the end of fiscal year
1999. Therefore, we believe that the weaknesses in Surface Mining’s general controls over
its automated information systems should be reported as a “reportable condition” in Surface
Mining’s annual financial statements for fiscal year 1999.

Surface Mining’s specific comments to some of the recommendations are in the paragraphs
that follow.

    Recommendation A.1. Surface Mining said that it had completed a risk assessment for
each of its 16 mission critical systems and that these risk assessments were included in its
response. However, the response did not include risk assessments for the Administrative
Records Management System (ARMS); the Technical Information Processing System
(TIPS); and the Work Assignment Tracking System/Mine Information, Project Planning
System (WATSMIPPS). Therefore, Surface Mining should complete risk assessments for
these systems and provide target dates and titles of officials responsible for implementation.

    Recommendation B.l. Surface Mining requested that we delete the Payroll/Personnel
Data Entry (PAY/PERS) from our list of 13 sensitive systems because the System “is no
longer used” by Surface Mining. Also, Surface Mining identified four additional systems
requiring security plans. We have revised Appendix 2 to reflect these changes.

    Recommendation B.2. Surface Mining said that it concurred with the recommendation;
however, Surface Mining also said that it will elevate the information systems security
function to report to the Deputy Chief Information Officer rather than to the Chief
Information Officer (as we had recommended). We believe that this action meets the intent
of the recommendation, but a target date and title of the official responsible for
implementation should be provided.

    Recommendation F.5. Surface Mining stated that the systems’ log-in warning message
cannot be the first screen displayed because of computer “hardware and operating system
architecture.” However, Surface Mining stated that the log-in warning message will be
placed as close to the first screen as the hardware and operating system will allow. We
believe that this action meets the intent of the recommendation, but a target date and title of
the official responsible for implementation should be provided.

    Recommendation K.3. Surface Mining said that the minicomputer platforms used by
the Division of Financial Management maintain system logs and that the logs are retained
for 6 months. Surface Mining also said that the audit function on the Windows NT and the
Novell servers has been “enabled.” However, Surface Mining needs to implement policies
and procedures to ensure that the system logs are used and that the logs are controlled by

                                               7
request that Surface Mining provide an action plan that includes a target date and title of the
official responsible for implementing the policies and procedures.                       ..

In accordance with the Departmental Manual (360 DM 5.3) we are requesting a written
response to this report by January 24, 2000. The response should provide the information
requested in Appendix 4.

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress. In
addition, the Office of Inspector General provides copies of audit reports to the Congress.

We appreciate the assistance of Surface Mining personnel in the conduct of our audit.




                                               8
                                                                              APPENDIX 1
                                                                               Page 1 of 30


DETAILS OF WEAKNESSES AND FtECOMMENDATIdNS

SECURITY PROGRAM

Control Objective: The control objective for the security program is to establish the
framework for continually managing risk, developing system security policy, assigning
responsibilities, and monitoring the adequacy of the entity’s computer-related controls.

A. Risk Assessments

Condition: The Office ofSurface Mining Reclamation and Enforcement did not implement
             a risk management process. Specifically, we found that:

                 - Risk assessments had not been made of Surface Mining’s computer
             systems, applications, and computer resources.

                 - No overall determination had been made of the effectiveness of the
             technical controls implemented.

                - No acceptance of the residual risk of not implementing a risk
             management process had occurred.

Criteria:    Office of Management and Budget Circular A- 130, Appendix III, “Security of
             Federal Automated Information Resources,” states that adequate security
             “includes assuring that systems and applications used by the agency operate
             effectively and provide appropriate confidentiality, integrity, and availability,
             through the use of cost-effective management, personnel, operational, and
             technical controls.” Circular A-130 further states that, although formal risk
             analyses need not be performed, adequate security should be determined based
             on risk management. In implementing risk management, major factors such as
             “the value of the system or application, threats, vulnerabilities, and the
             effectiveness of current or proposed safeguards” should be considered. Also,
             the National Institute of Standards and Technology’s “An Introduction to
             Computer Security: The NIST Handbook” provides guidance on computer
             security risk management. The “NIST Handbook” specifically addresses the
             selection of safeguards to reduce risk and to accept any residual risk.

Cause:       Surface Mining had not developed policies and procedures to establish a risk-
             based approach to assessing the risks to its automated information systems and
             taking actions to manage these risks. In addition, no one was formally assigned
             responsibility for conducting risk assessments; thus, risks to the automated
             information systems had not been identified and managed.


                                              9
                                                                                APPENDIX 1
                                                                                 Page 2 of 30

                                                                                          ..
SECURITY PROGRAM

Effect:       Without identifying all significant threats and vulnerabilities to the automated
              information systems, computer resources, and facilities, Surface Mining’s
              management was unable to determine the most effective measures needed to
              protect against threats or reduce the vulnerabilities. Therefore, there was a risk
              that critical Surface Mining resources would not be adequately protected and
              that expensive controls would be implemented for resources which did not
              require significant protection.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Determine the risks associated with each of the systems and, based on the results of
the risk assessments, establish appropriate security policies and procedures.

    2. Ensure that risk assessments are conducted in accordance with Federal guidelines
which recommend that risk assessments support the acceptance of risk and the selection of
appropriate controls. Specifically, the risk assessments should address significant risks
affecting sensitive systems and major applications, appropriately identify controls
implemented to mitigate those risks, and formalize the acceptance of residual risk.

    3. Formally assign and communicate responsibility to those individuals required to
participate in assessing risks.




                                               10
                                                                                          APPENDIX 1
                                                                                           Page 3 of 30

                                                                                                    ..
SECURITY PROGRAM

B. System Security Plans

Condition: Security plans for Surface Mining’s 13 sensitive automated information
           systems (the systems are listed in Appendix 2) as reported to the Department
           of the Interior in Surface Mining’s “Automated Information Systems Security
           Plan,” dated February 1998, had not been developed. Also, Surface Mining
           had not reported the lack of security plans for the systems as a material
           weakness in its annual assurance statement on management controls for fiscal
           year 1999, as required by Office of Management and Budget Circular A-130,
           Appendix III.

Criteria:      The Computer Security Act of 1987 requires the development of a security plan
               for each Federal computer system that contains sensitive information. A
               computer security plan is designed to assist agencies in addressing the
               protection of general support systems’ and major applications that contain
               sensitive information to help ensure the systems’ integrity, availability, and
               confidentiality. In addition, Office of Management and Budget Circular A- 130,
               Appendix III, states that agencies without adequate security plans should
               consider classifying the lack of security plans as a material weakness in the
               agency’s annual Federal Managers’ Financial Integrity Act report to the
               Congress. Also, the National Institute of Standards and Technology’s Special
               Publication 800-18, “Guide for Developing Security Plans for Information
               Technology Systems,” states that “[a]11 Federal systems have some level of
               sensitivity and require protection as part of good management practice” and
               that the method of protection must be documented in a system security plan.

Cause:         Surface Mining management, rather than developing security plans for its 13
               sensitive systems, said that it believed the Management Control Reviews and
               Alternative Management Control Reviews were sufficient to meet security plan
               requirements. In addition, because Surface Mining’s information technology
               security function was within the Division of Information Systems
               Management’s Automated Data Processing Support Team, the function did not
               have adequate independence and authority to implement and enforce an overall
               Surface Mining computer security program that would ensure that security
               plans were developed for Surface Mining’s general support systems and major
               applications. We believe that, at a minimum, the position of Information
               Technology Security Officer should be elevated to report directly to Surface
               Mining’s Chief Information Officer. Further, while Surface Mining had


‘General support systems are an interconnected set of information resources under the same direct management
control which shares common functionality.

                                                     11
                                                                              APPENDIX 1
                                                                               Page 4 of 30

                                                                                       ..
SECURITY PROGRAM
             information technology security officers at other locations, most of their time
             was spent in performing other duties.

Effect:      Without automated information systems security plans, Surface Mining’s
             management did not have adequate assurance that the data in its sensitive
             systems were adequately protected. In addition, without security plans for the
             13 sensitive systems, Surface Mining had a material weakness that should be
             reported in its annual assurance statement on management controls for fiscal
             year 1999.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Provide resources to ensure that automated information systems security plans are
developed for its general support systems and major applications in accordance with the
Computer Security Act; Office of Management and Budget Circular A-130, Appendix III;
and the National Institute of Standards and Technology’s Special Publication 800-l 8.

    2. Ensure that the automated information systems security function is elevated
organizationally to report directly to Surface Mining’s Chief Information Officer and
formally provide the position with the authority to implement and enforce a computer
security program throughout Surface Mining.

    3. Report the lack of security plans for Surface Mining’s sensitive systems as a material
weakness in Surface Mining’s annual assurance statement on management controls for fiscal
year 1999.




                                             12
                                                                             APPENDIX 1
                                                                              Page 5 of 30

                                                                                     ..
SECURITY PROGRAM

C. Security-Related Personnel Policies and Procedures

Condition: Surface Mining’s security-related personnel policies and procedures did not
           ensure systems integrity. Specifically, we found that:

                 - Surface Mining personnel in public trust positions, such as computer
            security officers, system and application programmers, and sensitive automated
            information system owners and managers, did not have documented
            background investigations for security clearances or did not have adequate
            position sensitivity levels commensurate with their positjons. Also, Surface
            Mining personnel did not have documentation to support that required periodic
            followup background checks had been performed.

                - Critical automated data processing contractor personnel, such as system
            administrators and software management personnel, at the Division of
            Information Systems Management did not have documented background
            checks and security clearances.

Criteria:   Office of Management and Budget Circular A-130, Appendix III, requires
            agencies to establish and manage personnel security policies, standards, and
            procedures that include requirements for screening individuals who (1)
            participate in the design, development, operation, or maintenance of sensitive
            applications or (2) have access to sensitive data. Also, the Code of Federal
            Regulations (5 CFR 73 1.302) requires suitability reinvestigations every 5 years
            for personnel filling high risk positions. Additionally, the Department of the
            Interior Manual (441 DM 3) specifies that public trust positions (all positions
            that do not have national security related duties) must be designated at “risk
            levels commensurate with the public trust responsibilities and attributes of the
            position as they relate to the efficiency of the Federal service.”

Cause:      Surface Mining did not have established policies and procedures for requiring
            background investigations for Federal and contractor personnel filling sensitive
            and critical public trust positions. In addition, Surface Mining did not include
            in two of the contracts we reviewed a requirement for contractor personnel to
            have background investigations.

Effect:     Without adequate security-related personnel policies and procedures, Surface
            Mining increases the risk that sensitive automated information systems
            operations and data could be impaired or compromised by Federal or contractor
            personnel.



                                            13
                                                                           APPENDIX 1
                                                                            Page 6 of 30

                                                                                    ..
SECURITY PROGRAM

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

     1. Ensure that personnel security policies and procedures are developed, implemented,
and enforced, including those for obtaining appropriate security clearances for personnel
filling sensitive or critical public trust positions.

   2. Ensure that all automated data processing contractor employees to have proper
background clearances.

    3. Ensure that periodic reinvestigations are completed every 5 years on personnel who
are in public trust high risk positions.




                                            14
                                                                               APPENDIX 1
                                                                                Page 7 of 30

                                                                                        ..
ACCESS CONTROLS

Control Objective: The control objective for access controls is to limit or detect access to
computer resources (for example, data, programs, equipment, and facilities), thereby
protecting these resources against unauthorized modification, loss, and disclosure.

D. Resource Classifications

Condition: Surface Mining had not classified its computer resources to determine the level
           of security that should be provided.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, directs
             agencies to assume that all major systems contain some sensitive information
             which needs to be protected but to focus extra security controls on a limited
             number o,f particularly high risk or major applications. Also, the Computer
             Security Act requires agencies to identify systems that process sensitive data.

Cause:       Surface Mining did not have policies that provided for (1) information
             resources to be classified, (2) resource classification categories to be based on
             the need for protective controls, (3) senior-level management to review and
             approve resource classifications, and (4) determinations of resource
             classifications to be documented. Additionally, classification of the
             information resources could not be achieved because a risk assessment (which
             identifies threats, vulnerabilities, and the potential negative effects that could
             result from disclosing confidential data or from not protecting the integrity of
             data supporting critical transactions or decisions) had not been performed on
             the computer applications and systems software.

Effect:      If information resources are not classified according to their criticality and
             sensitivity, there is little assurance that Surface Mining is providing the most
             cost-effective means to protect the computer resources.

Recommendation:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
develop and implement policies to classify Surface Mining’s computer resources in
accordance with the results of periodic risk assessments and guidance contained in Office of
Management and Budget Circular A-l 30, Appendix III.




                                              15
                                                                              APPENDIX 1
                                                                               Page 8 of 30

ACCESS CONTROLS

E. Access Levels
Condition: Surface Mining did not have adequate controls in place to ensure that access
           levels granted to users of their automated information systems were
           appropriate. For example, we found that 14 personnel were granted
           “super-user” rights to the Fee Billing and Collection System (FEEBACS).
           Therefore, these users can manipulate FEEBACS databases, thus bypassing
           normal transaction processing controls.

            Additionally, we found that access approval documentation was not available
            for all users on the systems. For example, based on a statistical sample of users
            selected for each of the operating and sensitive application systems reviewed,
            we found that access approval documentation was not available for:

                - 20 (100 percent) of the users of the Novell operating system.

                - 63 (80 percent) of 78 of the users of the Sun Solaris operating system.

                - 3 1 (88 percent) of 35 of the users of the Windows NT operating system.

                - 18 (16 percent) of 109 of the users of the financial system application.

                - 20 (66 percent) of 30 of the users of FEEBACS application.

            In addition, we found that access granted to users ofthese systems had not been
            approved by the system owners or managers and that periodic reviews had not
            been performed to determine who the users were and whether the levels of
            access granted in the automated information systems were appropriate. We
            also found that individuals whose employment had been terminated had access
            to the systems.

Criteria:    The National Institute of Standards and Technology’s “Generally Accepted
             Principles and Practices for Securing Information Technology Systems” states:

                Organizations should ensure effective administration of users’
                computer access to maintain system security, including user account
                management, auditing and the timely modification or removal of
                access. . . . Organizations should have a process for (1) requesting,
                establishing, issuing, and closing user accounts; (2) tracking users and
                their respective access authorizations; and (3) managing these functions
                . . . [and] it is necessary to periodically review user account
                management on a system. Reviews should examine the levels of access


                                            16
                                                                                APPENDIX 1
                                                                                 Page 9 of 30

ACCESS CONTROLS                                                                         .I
                 each individual has, conformity with the concept of least privilege,
                 whether all accounts .are still active, [and] whether management
                 authorizations are up-to-date.

             The Department of the Interior Manual (375 DM 19, “Information Technology
             Security”), states, “Since the greatest threat to most computer systems comes
             from authorized users, bureaus should institute personnel controls such as least
             privilege, separation of duties, and individual accountability.” Further, the
             Manual states, “Detailed procedural guidelines will be established . . . to ensure
             IT [information technology] resources are properly protected and used only by
             authorized personnel.”

Cause:       Surface Mining management had not established policies to implement a
             process of approving access to its automated information systems. In addition,
             there was no formal assignment of responsibility for approving systems access
             and for periodically reviewing access levels granted to system users. Also,
             procedures had not been implemented to ensure that system administration
             personnel were promptly notified of changes in employee assignments or
             employment terminations.

Effect:      As a result, there was a risk that unauthorized access, data manipulation, and
             disclosure of sensitive information may occur and that the unauthorized access
             would not be detected or detected timely.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Institute a policy of “least privilege” access levels to ensure that access to resources
and data is limited to those users who require such access.

    2. Develop and implement policies and procedures for approving access to the
automated information systems that include the formal assignment of responsibility for
approving systems access.

    3. Develop and implement procedures to ensure that user access levels are periodically
reviewed to ensure that the current access provided is appropriate.

    4. Develop and implement procedures to ensure that system administration personnel
are promptly notified of changes in employee assignments or employment terminations.

   5. Implement controls to ensure that system owners approve all access to their
applications in accordance with Surface Mining policy.

                                              17
                                                                            APPENDIX 1
                                                                            Page 10 of 30

ACCESS CONTROLS

F. System Log-in

Condition: The number of unsuccessful log-in attempts to access Surface Mining’s
            automated information systems exceeded the standard established by the
            Department. Specifically, we found that:

                - Windows NT users were allowed unlimited unsuccessful log-in attempts.
            However, during our review, Surface Mining officials temporarily changed the
            setting to nine, with plans to change the setting to the standard of three
            attempts.

                - Sun Solaris system users were allowed five unsuccessful log-in attempts
            before their user identifications (ID) and passwords were revoked,

                 - Financial system users were allowed eight unsuccessful log-in attempts
            before their user IDS and passwords were revoked. However, during our
            review, Surface Mining ofticials implemented new software and reduced the
            setting to the standard of three.

            Additionally, the system log-in warning message that is used to warn potential
            unauthorized users that prosecution may occur was not displayed until after the
            user had logged on to the system and was authenticated as a valid system user.

Criteria:   The Department of the Interior’s “Automated Information Systems Security
            Handbook” states that “unsuccessful attempts to enter a password should be
            limited to three attempts.” Further, the “Handbook” requires that all
            communications equipment capable of displaying system messages display, as
            the first message seen by a user, a warning message regarding unauthorized use
            of Government computers and/or software.

Cause:      Although two of the three system administration personnel changed the number
            of log-in attempts, Surface Mining management had not developed polices and
            procedures that would implement the minimum standards established by the
            Department throughout Surface Mining. Additionally, Surface Mining
            management had not ensured that the warning message for unauthorized use
            was displayed as the first screen seen by a user.

Effect:     Without adequate controls in place to ensure proper access to automated
            information systems, there is the risk that unauthorized access to the systems
            could occur, resulting in the corruption of sensitive data or systems processing
            and the denial of service.



                                            18
                                                                           APPENDIX 1
                                                                           Page 11 of30

ACCESS CONTROLS

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

   1. Develop and implement policies and procedures establishing the maximum number
of log-in attempts allowed for its automated information systems in compliance with
Department of the Interior regulations.

     2. Ensure that the systems log-in warning message is the first screen displayed upon
initial access and prior to the user being authenticated as a valid system user.




                                            19
                                                                           APPENDIX 1
                                                                           Page 12 of 30

ACCESS CONTROLS                                                                    ..

G. Password Settings

Condition: Password requirements for accessing Surface Mining’s automated information
            systems were inadequate. Specifically, we found that:

                - Passwords did not contain a minimum number of characters or include
            special characters.

                - Passwords were fewer than the Department’s standard of six characters
            in length, were common words, and were the same as users’ IDS.

                - Passwords were not changed periodically.

                - Users were allowed to bypass password length and expiration settings.

                - System administration passwords were shared. In one instance, the Sun
            Solaris operating system was accessed over the Internet using the system
            administration account and password, and the password was in an unencrypted
            form

            Furthermore, using intrusion detection software, passwords for the Sun Solaris
            and Windows NT operating systems and the network router were identified
            within a 24-hour period, and powerful system administration level account
            passwords were obtained.

Criteria:   The National Institute of Standards and Technology’s “Generally Accepted
            Principles and Practices for Securing Information Technology Systems” states
            that if passwords are used for authentication they should have attributes such
            as a minimum length of six characters, should include special characters,
            should not be in an online dictionary, and should be unrelated to the user ID.
            Also, the Department of the Interior’s Automated Information Systems
            Security Handbook requires that passwords be a minimum of six characters and
            be changed periodically (90 days is recommended).

Cause:      Surface Mining had not developed policies and procedures on creating and
            changing passwords for its automated information systems. In addition,
            Surface Mining had not developed a policy requiring system administration
            personnel to log on to the system under specific user IDS that were issued to
            each individual.




                                           20
                                                                             APPENDIX 1
                                                                             Page 13 of 30

ACCESS CONTROLS

Effect:      The current password settings reduce the effectiveness of the password as a
             control, thereby increasing the risk for unauthorized access to sensitive
             information through password disclosure.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Develop and implement password policies and procedures. In addition, controls to
ensure compliance with these policies and procedures should be implemented.

    2. Implement a policy requiring system administration personnel to log on to the
automated information systems under specific user IDS.

    3. Evaluate current capabilities and implement procedures to address encryption or other
security methods to help prevent powerful system passwords and accounts from being
compromised when traveling across a network, such as the wide area network and the
Internet.




                                             21
                                                                                              APPENDIX 1
                                                                                              Page 14 of 30

ACCESS CONTROLS

H. Novell Network Access

Condition: “Public” users had inappropriate access to computer resources on the Novell
                network. Specifically, “Public” users had browse access at the root,* which
                allowed anyone to view user IDS and gather information without logging onto
                the network. Also, we identified 13 accounts with null3 passwords. In
                addition, the passwords were not required to be reset, which allowed anyone
                to log into these accounts to make unauthorized modifications or to manipulate
                data.

Criteria:       Office of Management and Budget Circular A-130, Appendix III, requires
                agencies to establish controls to ensure adequate security for all information
                processed, transmitted, or stored in Federal automated information systems.
                The Circular defines “adequate security” as “security commensurate with the
                risk and magnitude of harm resulting from the loss, misuse, or unauthorized
                access to or modification of information.” Also, the National Institute of
                Standards and Technology’s “Generally Accepted Principles and Practices for
                Securing Information Technology Systems” states, “Organizations should
                implement logical access control based on policy made by a management
                official responsible for a particular system, application, subsystem, or group of
                systems.”

Cause:          Surface Mining management had not developed policies and procedures to
                ensure that only authorized users had root access and that all accounts had
                active passwords.

Effect:         As a result, Surface Mining could not protect the Novell network operating
                system and other system software from unauthorized modification or
                manipulation and therefore could not ensure the integrity and availability of the
                network, the systems, and the data.




‘Root provides “a person with unlimited access privileges who can perform any and all operations on the
computer. Also called superuser.” (The Computer Language Company, Inc., Commuter Desktop
Encyclopedia, 1981-1998)

‘Null (null value) is “a value in a field or variable that indicates nothing was ever derived and stored in it.”
(The Computer Language Company, Inc., Computer Desktor, Encvclouedia, 1981-1998)

                                                      22
                                                                           APPENDIX 1
                                                                           Page 15 of 30

ACCESS       CONTROLS

Recommendation:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
develop policies and procedures to ensure that controls are in place to protect the Novell
network operating system and other system software from unauthorized modification or
manipulation.




                                            23
                                                                                  APPENDIX 1
                                                                                  Page 16 of 30

ACCESS CONTROLS

I. User Access Control

Condition: Surface Mining’s Information Systems Management Office in Washington,
            D.C., and the DivisionofFinancial Management in Denver, Colorado, had not
            implemented controls that limited access to its Novell file servers. Specifically,
            the “SECURE CONSOLE” command for the Novell file servers was not used.
            The “SECURE CONSOLE” command removes DOS from the file servers,
            which prevents users from shutting down the file server, exiting to DOS, and
            running unauthorized programs. Also, the “LOCK CONSOLE” command was
            not used. The “LOCK CONSOLE” command ensures that only users with
            proper authorization can access the file servers. Additionally, the password for
                                                      4
            the “RCONSOLE” was not encrypted and resided in at least two files (the
            autoexec.ncf and the netinfor.cfg) at the Division of Financial Management.
            The “RCONSOLE” command establishes connections that enable keyboard
            strokes at the workstations to be sent to the file servers and screen image
            changes at the file servers to be sent to remote workstations.

Criteria:     Office of Management and Budget Circular A-130, Appendix III, requires
              agencies to establish controls to ensure adequate security for all information
              processed, transmitted, or stored in Federal automated information systems.
              Circular A- 130 defines “adequate security” as “security commensurate with the
              risk and magnitude of harm resulting from the loss, misuse, or unauthorized
              access to or modification of information.”

Cause:        Surface Mining management had not identified or implemented the technical
              controls necessary to ensure that only authorized users had access to the Novell
              file servers.

Effect:       As a result, Surface Mining increased the risk that unauthorized individuals
              could access its file servers to run programs or gain access to data files. For
              example, because the “RCONSOLE” command was not encrypted, sensitive
              files could be copied to an unprotected location during maintenance/emergency
              procedures or be viewed by technical contractors or staff who had temporary
              supervisory access to the file servers.

Recommendation:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
identify and implement the technical controls necessary to ensure that only authorized users


4Encrypt is to “encode data for security purposes.” (The Computer Language Company, Inc., Computer
Desktop EncycloDedia, 198 l- 1998)

                                               24
                                                                       APPENDIX 1
                                                                       Page 17 of 30

ACCESS CONTROLS

have access to the Novell file servers. The controls should include using the “SECURE
CONSOLE” command in the autoexec.ncf file, encrypting the “RCONSOLE” password, and
using the “LOCK CONSOLE” command.




                                         25
                                                                                            APPENDIX 1
                                                                                            Page 18 of 30

ACCESS CONTROLS

J. Network Protection
Condition: Surface Mining’s Division of Financial Management did not protect its local
           area network against probes and attacks from unauthorized users. Specifically,
           the configuration of the Division’s network allowed internal and external users
           to access the systems.

Criteria:      Office of Management and Budget Circular A-130, Appendix III, requires
               agencies to establish controls to ensure adequate security for all information
               processed, transmitted, or stored in Federal automated information systems.
               Circular A-130 further defines “adequate security” as “security commensurate
               with the risk and magnitude of harm resulting from the loss, misuse, or
               unauthorized access to or modification of information.” Additionally, the
               National Institute of Standards and Technology’s “Executive Guide to the
               Protection of Information Resources” states, “Agency information should also
               be protected from intruders . . . as well as from employees with authorized
               computer access privileges who attempt to perform unauthorized actions.”

Cause:         The Division of Financial Management did not protect its local area network
               because it had not implemented a firewall system that defined the services and
               accesses to be permitted or denied when accessing its local area network.
                                                    6
               Although the Division had a router in place, the router was not used as a
               firewall to filter access.

Effect:         As a result, unauthorized users could easily gain access to the Division of
                Financial Management’s financial and other sensitive applications. For
                example, the Division’s network was vulnerable to passive threats, such as an
                intruder viewing data, and active threats, such as an intruder modifying data.




‘Firewall is a “method for keeping a network secure. It can be implemented in a single router that filters out
unwanted packets, or it may be a combination of technologies in router and hosts. They are also used to keep
internal network segments secure. For example, a research or accounting subnet might be vulnerable to
snooping from within.” (The Computer Language Company, Inc., Comnuter Deskton Encvclonedia, 1981-
1998)

6Router is a “device that forwards data packets from one local area network or wide area network to another.
Routers are used to segment local area networks in order to balance traffic within workgroups and to filter
traffic for security purposes and policy management.” (The Computer Language Company, Inc., Comnuter
Desktop Encvclonedia, 198 l- 1998)

                                                     26
                                                                          APPENDIX 1
                                                                          Page 19 of 30

ACCESS CONTROLS
Recommendation:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
install a firewall system for the Division of Financial Management’s local area network.




                                           27
                                                                                            APPENDIX 1
                                                                                            Page 20 of 30

                                                                                                      ..
SYSTEM SOFTWARE CONTROLS

Control Objective: The control objective for system software is to limit and monitor access
to the powerful programs and sensitive files that control the computer hardware and secure
applications supported by the system.

K. System Audit Tools

Condition: Surface Mining management did not use available system audit tools to ensure
               integrity over automated information systems processing and data and to detect
               inappropriate actions by authorized users. For example, we found that:

                    - Systems audit software was not used for the Windows NT and Novell
                servers and the Hewlett Packard and Sun Solaris operating systems at the
                Divisions of Information Systems Management and Financial Management.
                According to the “NIST Handbook,” this type of tool could assist data center
                and installation security management in evaluating its systems for security
                flaws, such as identifying security exposures related to “improper access
                controls or access control configurations, weak passwords, lack of integrity of
                the system software, or not using all relevant software updates and patches.”

                     - Some systems options for the Windows NT servers and the Novell
                operating system at the Divisions of Information Systems Management and
                Financial Management that produce audit trails in the systems were not
                implemented. However, for those systems that had systems options
                implemented to produce audit trails, the audit trails were not reviewed
                periodically. In addition, in the systems that had implemented the options to
                maintain the audit trail, the settings allowed the systems to overwrite* the audit
                trail. Therefore, in some of the systems, an audit trail that logs the results of
                actions taken by system programmers, system administration, and system users
                could not be reviewed.

Criteria:       Office of Management and Budget Circular A-130, Appendix III, requires
                agencies to establish controls to ensure adequate security for all information
                processed, transmitted, or stored in Federal automated information systems.
                In addition, Circular A- 130 states that individual accountability is one of the
                personnel controls required in a general support system. Circular A- 130 further
                states that an example of one of the controls to ensure individual accountability
                is examining or looking at patterns of users’ behavior by reviewing the audit


‘Overwrite is “to record new data on top of existing data such as when a disk record or file is updated.” (The
Computer Language Company, Inc., Computer Desktop Encyclopedia ,198 l- 1998)



                                                     28
                                                                               APPENDIX 1
                                                                               Page 21 of 30

                                                                                        .I
SYSTEM SOFTWARE CONTROLS

               trails. Also, the “NIST Handbook” states that audit trails are a technical
               mechanism to achieve individual accountability. In addition, the “Handbook”
               recognizes that not taking advantage of automated tools to assist in the review
               of computer systems security features “puts system administrators at a
               disadvantage.”

Cause:         Surface Mining management did not (1) require systems integrity and
               verification software, (2) implement systems options to record actions taken
               affecting systems controls and processing, (3) use and maintain available
               systems audit trails to detect and identify inappropriate actions affecting the
               systems processing and data integrity, and (4) establish procedures requiring
               periodic reviews of resultant systems logs.

Effect:        As a result, inappropriate systems settings and processing were not identified
               and recorded. Additionally, without periodic reviews of system audit trails,
               there was an increased risk that processing problems or unauthorized activities
               would not be detected or would not be detected timely and that the individual
               responsible would not be held accountable for the inappropriate actions.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1     Evaluate acquiring systems verification and auditing software.

    2. Implement the systems options available in each of the operating systems to record
activities affecting the systems.

    3. Implement policies and procedures to ensure that systems logs are used and are
maintained for an appropriate amount of time to provide an adequate audit trail of systems
activities and are controlled by personnel independent of the systems access control
administration function.

    4. Develop and implement procedures to ensure that periodic reviews of systems logs
for unauthorized or inappropriate activities are performed and that unauthorized or
inappropriate activities are reported to Surface Mining management.




                                               29
                                                                                             APPENDIX 1
                                                                                             Page 22 of 30

                                                                                                        .I
SYSTEM SOFTWARE CONTROLS

L. System Software Vulnerabilities

Condition: Surface Mining did not have adequate controls to ensure that necessary system
           software updates were implemented in a timely manner. Specifically, service
           packs’ available in October 1998 to address vulnerabilities in the Windows NT
           operating system had only been implemented by the Division of Financial
           Management in two of the four NT systems affected by the vulnerabilities as
           of March 30, 1999.

Criteria:       Federal Information Processing Standards Publication 106, “Guideline on
                Software Maintenance,” states that “software maintenance is the performance
                of those activities required to keep a software system operational and
                responsive after it is accepted and placed into production.” In addition, the
                “Guidelihe” states that “software maintenance is the set of activities which
                result in changes to the originally accepted (baseline) product set.” Further, the
                “Guideline” states that “these changes are made in order to keep the system
                functioning in an evolving, expanding user and operational environment.”

Cause:          Surface Mining management had not established policies and procedures to
                ensure that current service packs to the operating systems were evaluated for
                implementation and that the current fixes available from the vendor to address
                systems problems and vulnerabilities were implemented when necessary.

Effect:         The risk is increased that known operating systems vulnerabilities that have
                been identified and addressed by the systems software vendor will not be
                implemented by Surface Mining management as necessary.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Establish policy and procedures for ensuring that available software updates and
service packs are reviewed to identify those that should be implemented to address an
applicable systems vulnerability.

    2. Implement procedures to ensure that those updates which are determined to be
needed are implemented in a timely manner.


?Servlce packs is “a software patch that 1s applied to an Installed application. It is typically downloaded from
the vendor’s Web site. When executed, it modifies the application in place.” (The Computer Language
Company, Inc., Desktou Encvclooedia, 1981-1998)

                                                      30
                                                                               APPENDIX 1
                                                                               Page 23 of 30

                                                                                        ..
SEPARATION OF DUTIES
Control Objective: The control objective for separation of duties is the establishment of
policies, procedures, and organizational structure so that one individual cannot control key
aspects of computer-related operations and thereby conduct unauthorized actions or gain
unauthorized access to assets or records.

M. Duties Related to Automated Information Systems

Condition: The duties related to all the automated information systems throughout Surface
           Mining were not separated effectively. Specifically, we found that:

                 - Individuals responsible for setting up users of the automated information
             systems were also the individuals controlling the systems security logs that
             record the activities of the users of these systems.

                 - Individuals who controlled systems audit trails were also responsible for
             system administration, which resulted in these personnel monitoring their own
             system activities.

                 - Application programmers who made code changes to software were also
             responsible for moving those changes into production.

                 - Application programmers were responsible for changing production
             data.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires that
             security controls of personnel include separation of duties. Circular A- 130 and
             the “NIST Handbook” define separation of duties as the division of roles and
             responsibilities and of steps in a critical function so that no one individual can
             undermine a critical process. Additionally, Surface Mining’s Information
             Resources Management (KM) Policies and Procedures Manual states that
             appropriate safeguards should be used “to prevent unauthorized access to and
             use of information, data, and software.” The “Generally Accepted Principles
             and Practices for Securing Information Technology Systems,” issued by the
             National Institute of Standards and Technology, states, “In conjunction with
             appropriate tools and procedures, audit trails can provide a means to help
             accomplish several security-related objectives, including individual
             accountability, reconstruction of events, intrusion detection, and problem
             identification.” This publication further states that “access to online audit logs
             should be strictly controlled” and that “[olrganizations should strive for
             separation of duties between security personnel who administer the access



                                             31
                                                                              APPENDIX 1
                                                                              Page 24 of 30

                                                                                      _.
SEPARATION OF DUTIES

             control function and those who administer the audit trail.” Additionally, the
             publication states that “audit trails should be reviewed periodically.”

Cause:       Surface Mining management had not ensured that personnel whose duties
             included performing reviews of security logs were different from the personnel
             whose responsibilities included establishing users on those systems. In
             addition, no policy had been implemented to ensure that systems audit trails
             were maintained and controlled by individuals other than those individuals
             responsible for administration of the access control function. Further, the
             Division of Financial Management did not appropriately assign duties for
             application programmers to ensure that critical processes were not subverted.
             Specifically, application programmers should not have access to production
             data because production data should be restricted to users.

Effect:      Since logging and subsequently reviewing the logs are primary detection
             controls used to identify inappropriate activities of users who have significant
             system access, separating these two functions provides one ofthe main internal
             controls over the system administration function. As a result, there was an
             increased risk that inappropriate actions by the individuals who established
             system users would not be detected or would not be detected timely. In
             addition, there is an increased risk that accidental or intentional unauthorized
             actions by programmers could threaten the integrity of Surface Mining’s data
             and disrupt systems processing.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Implement procedures to ensure that personnel who perform access control
administration are not the same individuals who review and control systems security logs and
systems audit trails.

   2. Implement controls to ensure that application programmers are not responsible for
moving changed software into the production environment and do not have access to
update/change production data.




                                             32
                                                                              APPENDIX 1
                                                                              Page 25 of 30


SOFTWARE DEVELOPMENT AND CHANGE MANAGEMENT”

Control Objective: The control objective for software development and change
management is to prevent unauthorized programs or modifications to an existing program
from being implemented.

N. Change Management Controls

Condition: Change management controls over applications software were not adequate.
            Specifically, we found that:

                - The applications implementation, conversion, and,testing process was
            inadequate, causing data to be incorrect and requiring users to identify data
            errors, prepare and submit change requests to correct the data, and to reenter the
            correct data. Additionally, without adequate change management controls,
            Surface Mining was at risk of having malicious codes inadvertently or
            deliberately added to the applications software.

                - Software edits were removed without ensuring that change management
            controls were followed. Thus, changes were made that were not authorized,
            approved, and tested.

                - User change requests were not addressed in a timely manner.

Criteria:   Office of Management and Budget Circular A-127, “Financial Management
            Systems,” states, “Financial management systems shall be designed to provide
            for effective and efficient interrelationships between software, hardware,
            personnel, procedures, controls, and data contained within the system.”
            Surface Mining’s “Information Resources Management (KM) Policies and
            Procedures Manual” requires system owners to establish formal, written
            standards for program changes (both scheduled and emergency) and to
            authorize all scheduled program changes. In addition, the “Manual” requires
            system managers to ensure that all program changes meet formal, written
            standards and to notify the system owner when emergency program changes are
            made. Also, the “Manual” requires that unit, integration, system, and
            acceptance testing be used when a new system is developed or an existing
            system is enhanced.

Cause:       Surface Mining management did not ensure that its “Information Resources
             Management (IRM) Policies and Procedures Manual” was followed for
             changing applications software. Additionally, because change requests were
             not addressed timely, Surface Mining had a significant change request backlog
             that may reduce the ability of the applications meeting the users’ requirements.


                                             33
                                                                                APPENDIX 1
                                                                                Page 26 of 30


SOFTWARE DEVELOPMENT AND CHANGE MANAGEMENT -I

Effect:         As a result, the risk was increased that processing irregularities or malicious
                codes could be introduced, data lacked integrity, and applications were not
                functioning to meet users’ needs. In addition, the applications did not process
                data accurately, which resulted in insufficient and costly manual processes,
                such as time and personnel resources, to supplement the applications
                deficiencies.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

     1. Enforce Surface Mining’s written policies and procedures to ensure that all
application programs and modifications are properly authorized, tested, and approved and
that access to and distribution of programs is controlled.

    2. Establish the process of correcting applications deficiencies as a high priority to
reduce manual processes.

    3. Review change requests timely to ensure that user requirements are supported in the
applications.




                                                34
                                                                               APPENDIX 1
                                                                               Page 27 of 30

                                                                                        ..
SERVICE CONTINUITY
Control Objective: The control objective for service continuity is to ensure that when
unexpected events occur, critical operations continue without interruption or are promptly
resumed and critical and sensitive data are protected.

0. Business Continuity of Operations

Condition: Surface Mining had not developed continuity of operations plans for its
             telecommunications links or finalized plans for its facilities and data centers.
             In addition, while Surface Mining had completed draft plans for its data centers
             and its facilities, these plans had not been approved or tested, and training had
             not been provided to personnel on the plans. Further, the off-site facility (cold
             storage for backup tapes) for Surface Mining headquarters operations was not
             located at. least 1 mile from the headquarters location.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires
             agencies to establish a comprehensive contingency plan and periodically test
             the capability to perform the agency function supported by the application, as
             well as critical telecommunications links, in the event of a disaster or system
             failure. Additionally, the “NIST Handbook” states that a comprehensive
             disaster recovery plan is necessary to ensure the timely recovery of all business
             functions and the systems environment that are critical for day-to-day
             operations and to minimize downtime. Further, the “NIST Handbook”
             recognizes that personnel should be trained in their contingency-related duties.
             In addition, the “NIST Handbook” states that a primary contingency strategy
             for applications and data is storage at a secure off-site facility. According to
             the “NIST Handbook,” a secure off-site storage facility should be physically
             and environmentally protected to prevent unauthorized individuals from access
             and to protect data from heat, cold, or harmful magnetic fields and should be
             located at least 1 mile from the installation. Also, the Department ofthe Interior
             “Automated Information Systems Security Handbook” mandates off-site
             storage for “all AIS [automated information systems] installations providing
             critical support to the organization’s missions.”

Cause:       Prior to the issuance of the Department of the Interior’s Office of Managing
             Risk and Public Safety Policy Bulletin 98-001, “Continuity of Operations
             Planning - Guidance and Schedules,” dated March 1998, Surface Mining did
             not have any contingency plans for its telecommunications links, facilities, or
             data centers. At the time of our review, Surface Mining had developed
             contingency plans for its data centers and facilities, but it had not included
             plans for telecommunications links and had not addressed the testing of these
             plans. Further, Surface Mining management was unaware of the requirement


                                             35
                                                                                APPENDIX 1
                                                                                Page 28 of 30

                                                                                        .I
SERVICE CONTINUITY
             to have an off-site storage facility located at least 1 mile from the original
             computer facility installation.

Effect:      As a result, Surface Mining increased its risk of being unable to recover and
             resume critical operations should the systems fail or disasters occur.

Recommendations:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement:

    1. Ensure that a contingency plan is developed for critical telecommunications links.

   2. Ensure that contingency plans for telecommunications links, facilities, and the data
center are finalized and tested and that test results are used to update these plans.
Additionally, assurance should be provided that personnel are trained to implement the plans.

    3. Provide for a secure off-site storage facility that is at least 1 mile from the computer
facility.




                                               36
                                                                              APPENDIX 1
                                                                              Page 29 of 30

                                                                                       ..
SERVICE CONTINUITY
P. Incident Response Plan and Team
Condition: Surface Mining did not have a formal incident response plan and a formal
            response team in place to respond timely and efficiently to information system
            security incidents whether an incident was caused by a computer virus, other
            malicious codes, or a system intruder (either an insider or an outsider). A
            security incident may affect sensitive systems at different network sites,
            including contractors and clients. For example, end users would not know
            whom to contact if they find or have inadvertently introduced a virus to the
            network. Further, the system administrators may not escalate the incident to
            Surface Mining’s security management, thus allowing the virus to populate the
            wide area network.

Criteria:   Office of Management and Budget Circular A-130, Appendix III, states that
            “when faced with a security incident, an agency should be able to respond in
            a manner that both protects its own information and helps to protect the
            information of others who might be affected by the incident. To address this
            concern, agencies should establish formal incident response mechanisms.”

            The National Institute of Standards and Technology’s “Generally Accepted
            Principles and Practices for Securing Information Technology Systems” states
            that “an organization should address computer security incidents by developing
            an incident handling capability.”

Cause:      Surface Mining did not have a formal incident response plan or a formal
            response team because management believed that the local area and wide area
            network administrators were prepared to respond to each security breach based
            on what occurred during the incident. We believe that without a formal plan,
            Surface Mining may not have identified all types of incidents and actions to
            take to prevent further spreading of a virus. A formal incident response plan
            would include, for example, names of important contacts, both external and
            internal, such as managers and technical support personnel to aid in
            containment and recovery efforts and, if appropriate, Federal law enforcement
            officials to investigate the incidents.

Effect:     Without a formal response plan and team, Surface Mining cannot provide
            assurance to its users, contractors, or clients that data would be protected, that
            security incidents would be handled quickly and efficiently, and that corrective
            actions would be implemented.




                                            37
                                                                       APPENDIX 1
                                                                       Page 30 of 30

                                                                                ..
SERVICE CONTINUITY

Recommendation:

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
develop and implement a formal incident response plan and team.




                                          38
                                                                                              APPENDIX 2


             OFFICE OF SURFACE MINING RECLAMATION                                                        .I
                   AND ENFORCEMENT SENSITIVE
                AUTOMATED INFORMATION SYSTEMS


Office of Surface Mining’s Sensitive Automated Information Systems as Reported to
the Department of the Interior in Surface Mining’s “Automated Information Systems
Security Plan,” Dated February 1998

Advanced Budget/Accounting Control and Information Systems (ABACIS)
Audit Fee Billing and Collection System (AFBACS)
Abandoned Mine Lands Inventory System (AMLIS)
Applicant Violator System (AVS)
Civil Penalty Accounting Control System (CPACS)
Coal Data Repository System (CDR)
Electronic Mail (E-Mail)
Fee Billing and Collection System (FEEBACS)
Grants Information Fund Tracking System (GIFTS)
Litigation Tracking System (LTS)
Payroll/Personnel Data Entry (PAY/PERS)*
Synergistic Acquisition Tracking Inventory Network (SATIN)
Technical Information Processing System (TIPS)

Additional Sensitive Systems**

Correspondence Tracking System (CTS)
Office of Surface Mining Wide Area Network (OSMNET)
Work Assignment Tracking System/Mine Information, Project Planning System
    (WATTSMIPPS)
Administrative Records Management System (ARMS)




*In its response to the draft report, the Office of Surface Mining stated that this system “is no longer used.”

**In its response to the draft report, the Office of Surface Mining identified additional mission critical or
sensitive systems.

                                                       39
                                                                                       APPENDIX 3
                                                                                       Page 2 of 15



                            OFFICE OF SURFACE MINING
                     RESPONSE TO IG AUDIT RECOMMENDATIONS
                                 September 17,1999


         OSM reviewed the Draft Audit Report and agrees that we must have documented security
plans, risk analysis, and a security policy. Although many of our security procedures were not
written in these specific documents, we do have security controls in place. The Division of
Financial Management operates sensitive systems which process financial data. These systems
are comprised of two computer platforms, the Hewlett-Packard and the SUN, which operate
seven of the 16 Mission Critical Systems in OSM.

        To ensure that the operating environment at the Division of Financial Management is
secure and that the financial systems are protected, we maintain a secure building that houses the
computer systems. The computer room contains an un-intermptible power supply and is
environmentally controlled with an “automated notification” temperature and electrical monitor.
In addition, we have off-site storage of system and application back-ups which have been tested,

        Security access systems are in place that limit “system administrator” privileges to the
system administrator, their backup, and select other personnel on an as needed basis. We have
separation of tictional duties to preclude any one person from processing a transaction from
beginning to end. In addition, Daily Synchronization Reports are produced to test the integrity of
the data in the systems and all system modifications are tested prior to implementation.

       The following responses address each of the 38 recommendations identified in Appendix
1 of the Draft Audit Report:

SECURITY PROGW

A.     Risk Assessments

Recommendations:

1.     Determine the risks associated with each of the systems and, based on the results of
       the risk assessments, establish appropriate security policies and procedures.

       Response: OSM concurs with tliis recommendation and offers the following response:

         OSM completed a risk assessment for each of its 16 mission critical systems and has
established security policies and procedures. The risk assessments for each of the OSM’s mission
critical systems are at attachment I. The security policies and procedures are at attachment II.


                                                 1



                                            41
                                                                                       APPENDIX 3
                                                                                       Page 3 of 15




2.      Ensure that risk assessments are conducted in accordance with Federal guidelines
        which recommend that risk assessments support the acceptance of risk and the
        selection of appropriate controls. Specifically, the risk assessments should address
        significant risks affecting sensitive systems and major applications, appropriately
        identify controls implemented to mitigate those risks, and formalize the acceptance of
        residual risk.

        Response: OSM concurs with this recommendation and offers the following response:

        The risk assessments developed by OSM, were conducted in accordance with Federal
Guidelines and document the acceptance of risk and the selection of appropriate controls. A copy
of these risk assessments are at attachment J. The IG has conducted an interim review of several
of these risk assessments and given OSM recommendations for improvements, and these
recommendations are being incorporated into the completed final risk assessments.

3.     Formally assign and communicate responsibility to those required to participate in
       assessing risks.

       Response: OSM concurs with this recommendation and offers the following response:

        The Information Systems Security Officer (ISSO) has been formally assigned as the
security officer for OSM, and is responsible for ensuring that continuing risk assessments are
performed on OSM’s mission critical systems. The Information System Security Officer has
contacted each of the systems owners of OSM’s 16 mission critical systems and had them
participate in developing the risk assessments at attachment I. Chapter I of the Security Directive
provides policy concerning the Program Managers responsibility for creating and implementing
security plans and risk assessments for mission critical systems in their area of responsibility.

SECURITY PROGRAM

B.     System Security Plans

Recommendations:

I.     Provide resources to ensure that automated information systems security plans are
       developed for its general support systems and major applications in accordance with
       the Computer Security Act; Office of Management and Budget Circular A-130,
       Appendix III; and the National Institute of Standards and Technology Special
       Publication 800-18.

       Response: OSM concurs with this recommendation and offers the following response:


                                                  2


                                             42
                                                                                       APPENDIX 3
                                                                                       Page 4 of 15


        OSM has provided the necessary resources and developed system security plans for each
of its mission critical systems. The security plans for each of OSM’s 16 mission critical_,systems
are at attachment III. There is one automated system on your list of mission critical systems that
should be removed. The Payroll/Personnel Data Entry (PAY/PERS) is no longer used by OSM.
The IG conducted an interim review of several of these security plans and has given OSM
recommendations for improvements. These recommendations are being incorporated into the
completed security plans.

2.     Ensure that the automated information systems security function is elevated
       organizationally to report directly to Surface Mining’s Chief Information Officer
       and formally provide the position with the authority to implement and enforce the
       Surfaie Mining-wide computer security program.

        Response: OSM concurs with the recommendation that the security function should be
elevated, however we feel that it should be elevated to the Deputy Chief Information Officer
rather than the Chief Information Officer, for the following reason:

        The Deputy Director of OSM is designated as Chief Information Officer for the Bureau.
However, at the present time, OSM does not have a Deputy Director. Therefore, OSM will
elevate the security function organizationally to report directly to the Deputy Chief Information
Officer.

3.     Report the lack of security plans for surface mining’s 13 sensitive systems as material
       weakness in Surface Mining’s annual assurance statement on management controls
       for fiscal year 1999.

        Response: OSM concurs with the finding that there was a lack of security plans for 13
sensitive systems. However, OSM does not feel that this should be reported as a material
weakness in the annual assurance statement on management controls for fiscal year 1999, for the
following reason:

        OSM has completed security plans for all of it’s 16 mission critical systems. These
security plans are at attachment III.

SECURITY PROGRAM

C.     Security-Related Personnel Policies and Procedures

Recommendations:

1.     Ensure that personnel security policies and procedures are developed, implemented
       and enforced, including those for obtaining appropriate security clearances for
       personnel filling sensitive or critical public trust positions.

                                                   3


                                              43
                                                                                      APPENDIX 3
                                                                                      Page 5 of 15



        Response: OSM concurs with this recommendation and offers the following response:
                                                                                   ..
        OSM has developed a Security Directive (copy at attachment II), which contains personnel
security policies and procedures for obtaining appropriate security clearances for personnel filling
sensitive and critical trust positions. In addition, the Office of Personnel has developed a
procedures guidelines document, which has been included in Chapter VI of the Security Directive,
that will provide guidance on how to designate position sensitivity for all OSM positions, and the
level of background investigations which should be completed on each type of position.

        The Office of Personnel is in the process of identifying all personnel in Sensitive
Computer Areas and their position risk designation to assure proper clearance and background
investigations are completed. The procedures for implementing this policy is found in Chapter VI
of the Security Directive.

2.     Ensure that all automated data processing contractor employees have proper
       background clearances.

       Response: OSM concurs with this recommendation and offers the following response:

        OSM has developed mandatory language to be used in all agency contracts requiring that
all contractor employees receive proper background clearances. This language will be in all
agency contracts effective with contract renewals for October 1, 1999. In addition to mandatory
language in all agency contracts, all contractors currently on-board will receive a background
clearance, if required, and the requirement for all new contractor employees to receive proper
background clearances is included in the OSM Security Directive at attachment II, in Chapter I,
Section E.

3.     Ensure that periodic re-investigations are completed every 5 years on personnel who
       are in public trust high risk positions.

       Response: OSM concurs with this recommendation that periodic re-investigations should
                 be completed on personnel in public trust high risk positions and offer the
                 following response:

        OSM agrees that re-investigations should be completed on personnel in public trust high
risk positions. Although we are a small agency with few resources for re-investigations, we will
ensure that periodic re-investigations are completed every five years on personnel in public trust
high risk positions. Chapter VI contains policy on OSM’s Personnel Security Program.

ACCESS CONTROLS

D.     Resource classifications

                                                   4


                                              44
                                                                                      APPENDIX 3
                                                                                      Page 6 of IS



Recommendation:                                                                         ..
1.      We recommend that the Director, Office of Surface Mining Reclamation and
        Enforcement, develop and implement policies to classify Surface Mining’s computer
        resources in accordance with the results of periodic risk assessments and guidance
        contained in Office of Management and Budget Circular A-130 Appendix III,

       Response: OSM concurs with this recommendation and offers the following response:

        OSM has completed risk analyses and security plans for all sensitive systems, which will
be approved by appropriate agency personnel in concert with Program Managers. The Security
Directive at attachment II includes policy on how to designate sensitive data and requirements for
sensitive and non-sensitive data. In addition, OSM has developed and implemented policies in
the OSM Security Directive to ensure that access controls are in place that limit access to
Sensitive Computer Areas to protect computer resources from unauthorized modifications, loss,
disclosure or compromise.

E.     Access Levels

Recommendations:

1.     Institute a policy of “least privilege” access levels to ensure that access to resources
       and data is limited to those users who require such access.

       Response: OSM concurs with this recommendation and offers the following response:

        In Chapter XII, Section D of OSM’s Security Directive, at attachment II, policy has been
included to ensure that access to resources and data is limited to those users who require such
access. The Division of Financial Management completes a total review of all User access
privileges every six months. This involves the system owners reviewing all employees who have
access to their applications and related assigned privileges.

2.     Develop and implement policies and procedures for approving access to the
       automated information systems that include the formal assignment of responsibility
       for approving sys tern access.

       Response: OSM concurs with this recommendation and offers the following response:

        OSM has written policies and procedures in Chapter XII, Section D of the Security
Directive for approving access to the automated information systems and has assigned
responsibility for approving systems access to the appropriate areas within the organization.
OSM requires that all requests for User ID’s and access privileges by DFM users be documented

                                                   5



                                              45
                                                                                     APPENDIX 3
                                                                                     Page 7 of 15


via a hardcopy authorization form or electronic request with proper approval by system owners.


3.      Develop and implement procedures to ensure that user access levels are periodically
        reviewed to ensure that the current access provided is appropriate.

        Response: OSM concurs with this recommendation and offers the following response:


        OSM has included procedures in Chapter XII, Section D of the Security Directive that user
access levels are periodically reviewed to ensure that access levels provided are appropriate.
OSM requires that all system administrators complete a total review of all User access privileges
every six months. This involves the system owners reviewing all employees who have access to
their applications and related assigned privileges.

4.     Develop and implement procedures to ensure that system administration personnel
       are promptly notified of changes in employee assignment or employment
       terminations.

       Response: OSM concurs with this recommendation and offers the following response:

        The OSM Employee Exit Clearance Form will be updated to include a section for the
supervisor of the employee being reassigned or terminated to sign. The signature will remind the
supervisor of his responsibility to immediately notify the Information Systems Security Officer
that a particular employee has had a change of status. In addition, as an increased security
precaution, the Office of Personnel will send a message to the systems administrators listing all
employees that have left the agency during the previous pay period. This policy is in Chapter IX,
Section B.

5.     Implement controls to ensure that system owners approve all access to their
       application in accordance with Surface Mining Policy.

       Response: OSM concurs with this recommendation and offers the following response:

        The OSM Security Directive, attachment II, Chapter IX, Section B, contains policy
requiring system owners to approve all access to their application systems. OSM requires that all
requests for User ID’s and access privileges be documented via a hardcopy authorization form or
electronic request with proper approval by system owners. Before user-id’s generated as a result
of these requests are activated, DFM must receive a signed “Rules of Behavior” from the user.

F.     System Log-in

Recommendations:




                                             46
                                                                                     APPENDIX 3
                                                                                     Page 8 of 15


 1.    Develop and implement policies and procedures establishing the maximum log-in
       attempts allowed for it automated information systems in compliance with _,
       Department of Interior regulations.

       Response: OSM concurs with this recommendation and offers the following response:

         OSM has implemented policy in its Security Directive that establishes the maximum
unsuccesstil log-in attempts to be three (3) before the user is locked out of the system. However,
the SUN computer at DFM is set for five (5) attempts prior to invalidation of a User ID, because
this is a standard for the SUN Solaris System. This policy is in Chapter XII, Section D.

2.     Ensure that the systems log-in warning message is the first screen displayed upon
       initial access and prior to the user being authenticated as a valid system user.

       Response: OSM concurs with the recommendation and offers the following response:

        The hardware and operating system architecture of the systems does not always allow a
warning message to be the first screen displayed upon initial access to the system. However,
OSM will place systems log-in warning message as close to the first screen as the hardware and
software will allow.

G. Password Settings

Recommendations:

1.     Develop and implement password policies and procedures. In addition, controls to
       ensure compliance with these policies and procedures should be implemented.

       Response: OSM concurs with the recommendation and offers the following response:

       OSM has included password policy and other access control measures in the Security
       Directive. The policy requires a minimum of six alphanumeric characters on passwords.
       The system software has been modified to not accept a password of less than the minimum
       required characters. This policy is in Chapter XII, Section B of the Security Directive.

2.     Implement a policy requiring system administration personnel to log on to the
       automated information systems under specific user ID’s.

       Response: OSM concurs with the recommendation and offers the following response:

       The OSM Security Directive, at attachment II, contains policy requiring system
administrators to have and use their own unique password when logging into the systems as an
administrator. This policy specifically states that system administrators are not to share

                                                 7


                                            47
                                                                                    APPENDIX 3
                                                                                    Page 9 of 15


passwords. In addition, the policy states that passwords will be changed every 90 days . This
policy is in Chapter XII, Section B of the Security Directive.                        .I
 3.    Evaluate current capabilities and implement procedures to address encryption or
       other security methods to help prevent powerful system passwords and accounts
       from being compromised when traveling across a network, such as the wide area
       network and the internet.

       Response: OSM concurs with the recommendation and offers the following response:

        Upon implementation of the Firewall at DFM during the fall of 1999, encryption software
will be installed on client work stations belonging to the various System Administrators within
the DFM to provide increased security for their user id’s and passwords during transmittal.

H.     Novel Network Access

Recommendation:

1.     We recommend that the Director, Office of Surface Mining Reclamation and
       Enforcement, develop policies and procedures to ensure that controls are in place to
       protect the Novell network operating systems and other system software from
       unauthorized modification or manipulation.

       Response: OSM concurs with this recommendation and offers the following response:

       1.     OSM has included policy in the Security Directive to ensure that users are not
              given inappropriate access to computer resources on the Novell network. Users
              will not be given browse access at the root, and the Security Directive (copy at
              attachment II), will not allow the use of null passwords. This policy is in Chapter
              XII, Section D.

I.    User Access Control

      Recommendation:

1.    We recommend that the Director, Office of Surface Mining Reclamation and
      Enforcement, identify and implement the technical controls necessary to ensure that
      only authorized users have access to the Novell file servers. The controls should
      include using the “SECURE CONSOLE” command in the autoexec.ncf file,
      encrypting the “RCONSOLE” password and using the “Lock Console” command.

      Response:      OSM concurs with the recommendation that only authorized users should
                     have access to the Novell fiIe servers, and offers the following response:

                                                  8




                                             48
                                                                                    APPENDIX 3
                                                                                    Page 10 of 15


        1.     The Security Directive will include policy that requires the use of encrypting the
               “RCONSOLE” password. In addition, the policy will also require that “SECURE
               CONSOLE” command in the autoexec.ncf file, and the “LOCK CONSOLE”
               command must be used, unless the computer room is secure, and unauthorized
               users are not able to gain access to the computer room. This policy is in Chapter
               XII, Section B.

J.      Network Protection

Recommendations:

1.      We recommend that the Director, Office of Surface Mining Reclamation and
        Enforcement, install a firewall system for the Division of Financial Management local
        area network.

       Response: OSM concurs with this recommendation and offers the following response:

       A firewall is currently being installed at the Division of Financial Management in Denver,
and in the Headquarters location in Washington, D.C.

SYSTEM SOFTWARE CONTRQLS

IL     System Audit Tools

Recommendations:

1.     Evaluate acquiring systems verification and auditing software.

       Response: OSM concurs with this recommendation and offers the following response:

        OSM will establish a team from its group of Information Technology resources to evaluate
acquiring systems verification and auditing software. This team will be established during the
agency-wide IRM Coordinators meeting being conducted in November, 1999.

2.     Implement the systems options available in each of the operating systems to record
       activities affecting the system.

       Response: OSM concurs with this recommendation and offers the following response:

        Both the SUN and HP computer systems at DFM maintain and retains system logs for a
period of six months. The audit function on both NT and Novell in other locations are enabled.

3.     Implement policies and procedures to ensure that system logs are used and are

                                                  9


                                             49
                                                                                    APPENDIX 3
                                                                                    Page 11 of 15


        maintained for an appropriate amount of time to provide an adequate audit trail of
        systems activities and are controlled by personnel independent of the systems access
        control administration function.

        Response: OSM concurs with this recommendation and offers the following response:

         Both the SUN and HP computer systems at DFM maintain and retains system logs for a
 period of six months. The audit function on both the NT and Novell servers in Washington are
 enabled.

4.      Develop and implement procedures to ensure that periodic reviews of systems logs
        for unauthorized or inappropriate activities are performed and tbat unauthorized or
        inappropriate activities are reported to Surface Mining Management.

        Response: OSM concurs with this recommendation and offers the following response:


        System administrators/system managers will review logs periodically and report incidents
in conformance with OSM’s Incident Reporting Procedures. The Incident Reporting Procedures
are in Chapter XI, Section G of the Security Directive.

L.     System Software Vulnerabilities

Recommendations:

1.     Establish policy and procedures for ensuring that available software updates and
       service packs are reviewed to identify those that should be implemented to address
       and applicable systems vulnerability.

       Response: OSM concurs with this recommendation and offers the following response:

        OSM has established policy to ensure that available software updates and service packs
are reviewed to identify needed software upgrades and new service packs. The DFM Quality
Assurance Log schedules a monthly task to hardware system managers to check via the Internet
for software upgrades and new service packs.

       The system manager, based on their research and needs, will decide on implementing
software upgrades. This policy is in Chapter XI, Section H of the Security Directive.

2.     Implement procedures to ensure that those updates deemed needed are implemented
       in a timely manner.

       Response: OSM concurs with this recommendation and offers the following response:

                                                  10


                                             50
                                                                                       APPENDIX 3
                                                                                       Page 12 of 15


       The DFM Quality Assurance Log schedules a monthly task to hardware system managers
to check via the Internet for software upgrades and new service packs. The system manager,
based on their research and needs, will decide on implementing software upgrades. This policy is
in Chapter XI, Section H of the Security Directive.

SEPARATION OF DUTIES;

M.      Duties Related to Automated Information Systems

Recommendations:

1.     Implement procedures to ensure tbat personnel who perform access control
       administration are not the same individuals who review and control systems security
       logs and systems audit trails.

       Response: OSM concurs with the recommendation and offers the following response:


        DFM has procedures in place to ensure that personnel who perform access control
 administration are not the same individuals who review and control systems security logs and
systems audit trails. Procedures of this type are handled outside of the particular software system,
because hardware and software providers (Hewlett-Packard, SUN, NOVELL, and NT included)
established access to system security logs, system audit trails, and the ability to create and modify
user access to their computer platforms as a function of the System Manager.

        In order to better control these fimctions, DFM has implemented a number of “checks and
balances” to ensure integrity. The establishment of a new user or the modification of an existing
user must be requested by the users supervisor and approved by the system owner. Then, DFM’s
Information Systems Security Officer coordinates with the appropriate System Manager to create
or modify the user’s access to the system. Biannually, the system owners reviews a list of
registered users and their access levels to confirm that they are valid. This creates both a
“separation of duties” between those individuals who authorize access and those individuals who
enable access to DFM systems and provides for a continuing re-evaluation of access to DFM
systems.

        With regard to the review of control systems security logs, system software monitors
unauthorized access attempts to DFM systems, and automatically disables a user ID after three to
five access attempts, depending on the system specifications. This software also maintain logs of
successful access to DFM systems. Logs are also reviewed by the system owner and the
Information Systems Security Officer periodically to determine if unauthorized access attempts to
DFM systems are being attempted.

       DFM defines systems audit trails as database logs. These database logs are controlled by

                                                   11



                                              51
                                                                                         APPENDIX 3
                                                                                         Page 13 of 15


the individual database administrators. Database logs are used by DFM for two purposes: (1) to
identify invalid or inappropriate changes to data within DFM systems, and (2) to recover data
whenever a hardware or software error occurs. Because these logs are controlled by the-database
administrator and not the System Manager, the requirement for separation of duties is satisfied.

2.      Implement controls to ensure that application programmers are not responsible for
        moving changed software into the production environment and do not have access to
        update/change production data.

        Response: OSM concurs with this recommendation and offers the following response:

        DFM’s computer programmers have the capability to check production software in and
out of the application so&are libraries and to modify production data. This is a very typical
process in small data processing shops. DFM does not have funding or staffing levels to maintain
independent software librarians, security officers, security maintenance personnel and
programmers who only work on test areas and do not have access to production areas.

        Change control procedures are used by the system owner and technical staff in requesting
and completing changes (STR and DSR). Programmers are assigned tasks, the systems owner
tests the programmers modifications, and the programmer schedules and implements the
modifications after a successful test and approval by the system owner. All program
modifications are recorded via system logs, table/file date stamping, and in the DSWSTR System.

         Quality and internal controls are completed via external reconciliation, quality assurance,
internal control reports, and via separation of functional duties to preclude a transaction from
being completed from beginning to end by one person.



N.     Change Management Controls

Recommendations:

1.     Enforce Surface Mining’s written policies and procedures to ensure that all
       application programs and modifications are properly authorized, tested, and
       approved and that access to and distribution of programs is controlled.

       Response: OSM concurs with this recommendation and offers the following response:

       OSM will enforce its policies and procedures to ensure that all application program
modifications are properly authorized, tested, and approved and that access to and distribution of
programs are controlled. This policy is in Chapter XII, Section H and Chapter IV, Section D of
the Security Directive.

                                                   12


                                              52
                                                                                       APPENDIX 3
                                                                                       Page 14 of 15


2.      Establish the process of correcting applications deticiencies as a high priority to
        reduce manual processes.

        Response: OSM concurs with this recommendation and offers the following response:

        DFM has a process for prioritization of System Trouble Reports (STR) and Data System
Request (DSR). All requests for changes to the systems are recorded on these forms, STR’s are
corrected immediately. DSR’s are generated by users to improve reports, develop new reports,
develop new modules, etc. We encourage users to prepare a DSR for all desired changes so that
system owners can maintain an inventory of requested changes and prioritize the top five requests,
Our current inventory is larger because of the resource drain by Year 2000, standard general
ledger and budget object class changes.

       The DFM Quality Assurance Log has an event scheduled every two weeks that requires a
review and prioritization of STRDSR. This process to correct deficiencies will be established as
a high priority.

3.     Review Change request timely to ensure that user requirements are supported in the
       applications.

       Response: OSM concurs with this recommendation and offers the following response:

       The DFM Quality Assurance Log has an event scheduled every two weeks that requires a
review and prioritization of STRDSR. This process to correct deficiencies will be established as
a high priority. OSM will provide timely review of change request to ensure that user
requirements are supported in a timely manner.

C
SERVICE
  O N T I N U I T Y

0.     Business Continuity of Operations

       Recommendations:

1.      Ensure that a contingency plan is developed for critical telecommunications links.

       Response: OSM concurs with the recommendation and offers the following response:

        OSM has developed a Continuity of Operations Plan (copy at attachment VI), which
documents the re-establishment of critical telecommunications services, including
telecommunications data links, within “Appendix F”, Telecommunications For
example, DOINET, FTS2000 (AT&T), FTS2001 (MCI-Worldcorn), and the General Services
Administration’s local exchange carriers’ service contracts stipulate loss-of-service recovery time
periods by the carriers and the capability to reroute service-outage access.

                                                   13



                                              53
                                                                                      APPENDIX 3
                                                                                      Page 15 of 15




2.      Ensure that contingency plans for telecommunications links, facilities, and data
        center are finalized and tested and that test results are used to update these’plans.
        Additionally, assurance should be provided that personnel are trained to implement
        the plans.


        Response: OSM concurs with the recommendation and offers the following response:

        The OSM Continuity of Operations Plan documents both severity of operational outages
and the respective operational contingency site locations. For example, outages affecting only the
South Interior Building are to be operationally restored from the Main Interior Building in
Washington, D.C. Personnel training, test-plan reviews, test-execution, and lessons learned will
be incorporated and updates will be addressed annually.

3.     Provide for a secure off-site storage facility that is a least 1 mile from the computer
       facility.

       Response: OSM concurs with this recommendation and offers the following response:

         OSM Headquarters, in Washington, D.C., has established the Appalachian Regional
Coordinating Center in Greentree, Pennsylvania, a distance of more than l-mile as the secure off-
site storage location.

P.     Incident Response Plan and Team

Recommendation:

1.     We recommend that the Director, Office of Surface Mining Reclamation and
       Enforcement, develop and implement a formal incident response plan and team.

       Response: OSM concurs with this recommendation and offers the following response:

        OSM is included in the letter of agreement between the Department of the Interior and the
Federal Computer Incident Response Capability Program. A copy of this Letter of Agreement is
at attachment V. This Letter of Agreement provides Department-wide protection for dealing with
criminal activities that pose a threat to critical Federal Information Systems.




                                                  14



                                             54
                                                                            APPENDIX 4


         STATUS OF AUDIT REPORT RECOMMENDATIONS                                      ..

Finding/Recommendation
        Reference              Status                       Actions Reauired

           A.1             Management           Provide an action plan that addresses the
                           concurs;             risk assessments for the four mission
                           additional           critical systems that were not included in
                           information          the response, and include target dates
                           needed.              and titles of the officials responsible for
                                                implementation.

A.2,A.3, B.l,B.2, C.l,     Management           Provide target dates and titles of the
C.2, C.3,D.l,E.l,E.2,      concurs;             officials responsible for implementation.
E.3, E.4, ES, F.l, F.2,    additional
G.l, G.2, G.3,H.l,I.l,     information
J.l, K.4, L.l, L.2,N.l,    needed.
N.3, and 0.1

           B.3             Resolved.            We agree with the actions taken.

           K.1             Resolved; not        No further response to the Office of
                           implemented.         Inspector General is required. The
                                                recommendation will be forwarded to
                                                the Assistant Secretary for Policy,
                                                Management and Budget for tracking of
                                                implementation.

K.2, M.l? M.2, N.2, 0.2,   Implemented.         No further response is required.
0.3, and P.l

           K.3             Management           Provide an action plan for developing
                           concurs;             and implementing policies and
                           additional           procedures to ensure that the system logs
                           information          are used and that the logs are controlled
                           needed.              by personnel independent of the system
                                                access control administration function.
                                                The plan should include a target date and
                                                title of the official responsible for
                                                implementation.




                                           55
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                  http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 2082420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
J
                                       d-
                                        L
bm




     U.S. Department of the Interior
     Office of Inspector General
     1849 C Street, NW
     Mail Stop 5341- MIB
     Washington, D.C. 20240-000 1

     Toll Free Number
           l-800-424-508   I


     FTSKommercial Numbers
         (202) 208-5300
         TDD (202) 208-2420
